                                                                 U.S. Department of Justice


                                                              United States Attorney
                                                    District of Maryland


Thomas M. DiBiagio                                  Northern Division                           410-209-4800
United States Attorney                              6625 United States Courthouse       TTY/TDD:410-962-4462
                                                    101 West Lombard Street                     410-209-4836
                                                    Baltimore, MD 21201-2692                FAX 410-962-0693

                                                    Southern Division
                                                    400 United States Courthouse                  301-344-4433
                                                    6500 Cherrywood Lane                          301-344-4422
                                                    Greenbelt, MD 20770-1249                  FAX 301-344-4516

                                                                                              Please respond to:
                                                                                              Northern Division
OCTOBER 8, 2002

FOR IMMEDIATE RELEASE                                           FOR FURTHER
                                                                INFORMATION CONTACT
                                                                MICHAEL A. DIPIETRO
                                                                (410) 209-4885


                         MVA EMPLOYEE, BALTIMORE MAN, INDICTED
                            IN FALSE DRIVERS LICENSE SCHEME

          Baltimore - Thomas M. DiBiagio, United States Attorney for the District of Maryland,

Gary M. Bald, Special Agent in Charge, Federal Bureau of Investigation, Baltimore District,

Louis Crocetti, District Director, Immigration and Naturalization Service, Baltimore District

Office, and James Kuiken, Special Agent in Charge of the U.S. Department of Transportation,

Office of Inspector General, Washington Field Office, announced that Mohan B. Thapa, age 32,

a legal resident alien from Nepal living in Baltimore, and Mellarie L. Chisholm, age 37, of

Towson, were indicted today in connection with their alleged roles in a scheme to provide

Maryland MVA identification cards and driver’s licenses to illegal aliens and aliens who did not

have proper proof

of identification.

          The indictment alleges that between mid-September 2001 and the end of September 2002

Thapa paid Chisholm, an employee at the Maryland Motor Vehicle Administration, Mondawmin
Mall office, undisclosed amounts of money in order for Chisholm to process applications for

driver’s

licenses and Maryland identification cards for aliens who did not have proper proof of

identification. The indictment further alleges that between 300 and 500 illegal aliens and aliens

without proper identification received Maryland identification cards or driver’s licenses in the

past year as a result of the relationship between Thapa and Chisholm. Thapa, who lived in the

6100 block of Fairdel Avenue in Baltimore, was a certified court interpreter who provided

translation services for individuals attempting to obtain Maryland driver’s licenses.

       The indictment specifically charges both Chisholm and Thapa with one count of

conspiracy, two counts of using the mails to aid in a bribery scheme, and two counts of

producing false identity documents. The maximum prison sentence for the conspiracy charge

and for the use of the mails to aid in bribery charges, is five years for each count in the

indictment. The maximum term of imprisonment for the production of false identity documents

is fifteen years for each count in the indictment.       Each count in the indictment carries a

maximum fine of $250,000.

       Both Mr. Thapa and Ms. Chisholm were arrested on September 27, 2002, by reason of

criminal complaints and arrest warrants issued by the United States District Court for the District

of Maryland. Ms. Chisholm was released on pretrial conditions. Mr. Thapa has been detained

since his arrest. No further court proceedings have been scheduled at this time.

       An indictment is a finding by a federal grand jury that there is probable cause to believe

that the crimes charged therein were committed. An indictment is merely an accusation and both

Mr. Thapa and Ms. Chisholm are presumed innocent until and unless proven guilty.

       The case was investigated by special agents of the FBI, the INS, the Inspector General of
the U.S. Department of Transportation and investigators with the Maryland Motor Vehicle

Administration. The case is being prosecuted by Assistant United States Attorney Joseph L.

Evans.

                                           ###
